ATTORNEY GENERAL OF MISSOURI
ERIC SCHMITT
August 31, 2021
Scott S. Harris
Clerk of the Supreme Court of the United States
Supreme Court Building
One First Street, N.E.
Washington, DC 20543
Re:

No. 21-3, Eric S. Schmitt, et al., v. Reproductive Health Services
of Planned Parenthood of the St. Louis Region, et al.

Dear Mr. Harris,
Petitioners Eric S. Schmitt, et al. ("Missouri") filed a petition for writ of
certiorari in the above-captioned case, seeking review of a panel decision of the Eighth
Circuit filed on June 9, 2021. The petition was docketed in this Court on July 2, 2021.
On July 13, 2021, the U.S. Court of Appeals for the Eighth Circuit, acting sua sponte,
vacated the panel decision and granted en banc consideration of the case. See July
13, 2021 Order, attached. On August 20, 2021, the Eighth Circuit scheduled oral
argument before the en banc court to occur on September 21, 2021.
As Respondents noted in their August 5 letter to the Court, the Eighth Circuit's
sua sponte order granting en banc review vacated the panel decision of which
Missouri sought this Court's review. The vacatur of that panel decision does not
deprive this Court of jurisdiction over Missouri's petition, because the filed petition
may now be deemed a petition for certiorari before judgment. See 28 U.S.C. ยง 2101(e).
In light of the Eighth Circuit's order, this Court may also defer consideration of the
petition until the Eighth Circuit re-issues a judgment. See Ally Fin. Inc. v. Haskins,
141 S. Ct. 1235 (2021) (deferring consideration until disposition of pending case); see
also Shapiro, et al., SUPREME COURT PRACTICE, Ch. 6.31(e) Deferring Consideration
of a Petition, at 485 (10th ed. 2013). As Respondents noted in their August 5 letter,
however, they do not consent to deferred consideration.
Petitioners will promptly advise the Court of any material changes, including
any disposition by the en banc Eighth Circuit.

Supreme Court Building
207 W. High Street
P.O. Box 899
Jefferson City, MO 65102
Phone: (573) 751-3321
Fax: (573) 751-0774
www.ago.mo.gov

Sincerely,

D. JOHN SUER
Solicitor General
Counsel of Record
Supreme Court Building
207 West High Street
Jefferson City, MO 65102
(573) 751-8870
John.Sauer@ago.mo.gov
cc:

Counsel for Respondents

Enclosure

